HHS/OIG, Audit -"Review of Medicaid Claims for Patients Under Age 21 in State-Operated Psychiatric Hospitals
That Were Institutions for Mental Diseases in California During the Period July 1, 1997 Through February 28, 2001,"(A-09-02-00084)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Patients Under Age 21 in State-Operated Psychiatric Hospitals That Were Institutions
for Mental Diseases in California During the Period July 1, 1997 Through February 28, 2001," (A-09-02-00084)
November 30, 2004
Complete
Text of Report is available in PDF format (689 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if controls were in place to preclude California from claiming Federal Medicaid
funds for medical services, except inpatient psychiatric services, provided to residents under age 21 in State-operated
psychiatric hospitals that were institutions for mental diseases.  We found that California improperly claimed Federal
funds because it did not have controls to prevent claims for such medical services.  As a result, from July 1, 1997,
through February 28, 2001, we estimate that California improperly claimed $380,920 ($190,460 Federal share) for medical
services.  We recommended that California (1) refund $190,460 to the Federal Government; (2) implement controls to
prevent Federal funds from being claimed for such medical services; and (3) identify and refund to the Federal Government
any Federal Medicaid funds improperly claimed after February 28, 2001.